1 —
No.
IN THE
Supreme Court of the United States
supreme court, U.S"
FILED

ANTONIO MEDINA
Petitioner
VS.

UNITED STATES OF AMERICA
Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

Antonio Medina
P.O. Box 361361
Milpitas CA, 95036
714 248 5689
Petitioner

i

SEP 23 2021
OFFICE OF THE Cl FRk-

QUESTIONS PRESENTED
1. Whether the split in the Circuits regarding tests to grant coram nobis relief
should remain unresolved.
2. Whether the test used by the 1st circuit violates due process of law and
contravenes the Supreme Court doctrine about the issuance of writ coram nobis.
3. Whether the 1st circuit case George is bad law permitting biased rulings in
coram nobis cases based on general rule and should be overruled by this court.
4. Whether the 1st circuit application of their own law, which contravenes that of
the Supreme Court, permitting convictions of innocent people to remain is
repugnant and/or should be sanctioned by this court.
5. Whether the 1st circuit court violates the fundamental principle Nullum crimen
sine lege refusing to exonerate a person who has committed no crime but was
wrongfully convicted by that court.
6. Whether due process is violated when circuit judges, and 1st circuit judges, in
particular, can ignore challenges to their impartiality and proceed to decide a
case and judgment while the challenge is raised is unresolved.
7. Whether judge Selya is biased and incompetent to rule in a corm Nobis case by
reason of his stated opinion in George.
8. Whether the 1st circuit and lower courts in Massachusetts can continue their
witch hunt1 in the 21st century as they did in the 17th Century.
i

« Witch hunt” is used here to refer to persecution of any person who is charged

LIST OF PARTIES AND RELATED CASES
All parties appear in the caption of the case on the cover page.
Lower court related cases:
Medina v. United States, No. 15-cv-14257, U. S. District Court for the District of
Massachusetts. Judgment entered September 10, 2019.
Medina v. United States, No. 19-2179, U. S. Court of Appeals for the First Circuit.
Judgment entered December 9, 2020. Rehearing denied on- April 28, 2021.

with an inexistent crime, not limited to witchcraft, consistent with the definition in
Collins dictionary.
in

1

TABLE OF CONTENTS.
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

I. STATEMENT OF THE CASE

3

1. Summary of current proceedings

3

2. Summary of prior proceedings

4

3. Statement of facts and procedural background

6

4. First circuit's statement of the law and evidence

8

5. Disposition by the panel in the court of appeals

9

6. Grounds for the first circuit ruling

10

7. The relief sought in this Supreme Court proceedings

10

II. REASONS FOR GRANTING THE WRIT
1. The main reason for granting the writ

10
10

2. Certiorari should be granted to bring the First Circuit in line with
12

the other circuits
3. The test used in the 1st circuit violates the precedent in the main
Supreme Court case about coram nobis

15

4. The tripartite test used by the first circuit and other circuits was met 18
5. The 1st circuit case George is bad law permitting biased rulings in
coram nobis resulting in denial of a remedy to wrongfully convicted
innocent people

21

6. A circuit judge should not decide a case while a challenge to his
impartiality has been raised and the issue remains unresolved
III. CONCLUSION

25
27

APPENDIX
IV

Table of Authorities Cited.
CASES.
Aldinger v. Howard, 427 U.S. 1 (1976)
13
Byrnes v. United States, 408 F.2d 599 (9th Cir. 1969
19
14
Correa-Negron v. United States, 473 F.2d 684 (5th Cir. 1973)
Davis v. United States, 417 U.S. 333 (1974)
8
Fuller v. Oregon, 417 U.S. 40 (1974)
13
17
James v. Jacobson, 6 F.3d 233 (4th Cir. 1993)
passim
Loughrin v. United States, 134 S. Ct. 2384 (2014
Marks v. United States, 430 U.S. 188 (1977)
12
Nederv. United States, 527 U.S. 1 (1999)
8, 11
Shaw v. United States, 137 S. Ct. 462 (2016)
passim
19
Sibron v. New York, 392 U.S. 40 (1968)
11
Williams v. United States, 458 U.S. 279 (1982)
14
United States v. Akinsade, 686 F.3d 248 (4th Cir. 2012)
United States v. Gaudin, 515 U.S. 506 (1995
8, 11, 17
passim
United States v. George, 676 F.3d 249 (1st Cir. 2012)
14
United States v. Loschiavo, 531 F.2d 659 (2d Cir. 1976)
United States v. Mandel, 862 F.2d 1067 (4th Cir. 1988)
16, 18, 22
7
United States v. Puerta, 38 F.3d 34 (1994)
passim
United States v. Morgan, 346 U.S. 502 (1954)
United States v. Murray, 621 F.2d 1163 (1980)
21
14, 22
United States v. Travers, 514 F.2d 1171 (2d Cir. 1974)
13, 18, 20
United States v. Walgren, 885 F.2d 1417 (9th Cir. 1989)
STATUTES AND RULES.
United States Code
18U.S.C. § 1344
18U.S.C. §2314
28U.S.C. § 1254(1)

2, 6,7
6
1

V

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR A WRIT OF CERTIORARI.
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.

OPINIONS BELOW
The opinion of the United States court of appeals appears at Appendix 1
to the petition and it is unpublished.
The opinion of the United States district court appears at Appendix 2 and
it is unpublished.
JURISDICTION
The judgment of the Court of Appeals for the First Circuit was entered on
December 9, 2020.
A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: April 28, 2021, and a copy of the order
denying rehearing appears at Appendix 3.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
1

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
The constitutional provisions involved are the Fifth Amendment right to
due process of law, Sixth Amendment right to a fair trial; as well as right to
seek redress or a legal remedy; right of freedom and of participation in civil
society, and the right to petition.
The statutory provision involved is 18 U.S.C. § 1344 which provided, at
relevant times (1986)2:
(a) Whoever knowingly executes, or attempts to execute, a scheme or
artifice
(1) to defraud a federally chartered or insured financial institution; or
(2) to obtain any of the monies, funds, credits, assets, securities, or other
property owned by or under the custody and control of a federally chartered
or insured financial institution by means of false and fraudulent pretenses,
representations or promises shall be fined ...

2 This vague statute has been interpreted many times by the Supreme Court
which narrowed the scope given by circuit courts. The statute was enacted
in 1984, 2 years before Petitioner’s alleged violation in 1986. Because
Petitioner was charged with a new law he did not have the benefit of the
Supreme Court rulings in or before his direct appeal. For this reason,
collateral attack like the present one is proper and expected.
2

I. STATEMENT OF THE CASE
1. Summary of current proceedings
The 1st Circuit panel let a conviction stand despite being convicted for
something that is not a crime. Petitioner’s “crime” was to deposit a check in
his bank account. A check that was mailed to him from a third party. He had
no part in the preparation of the check and he did not alter it in any way.
What he did was perfectly ordinary conduct which can at best be considered
a “but for” cause of a loss sustained by the bank due to other reasons
including bank mistakes. Loughrin established that “but for” causation is not
enough to convict of bank fraud.
This Appeals Court found that the tripartite test for granting coram nobis
relief was not satisfied, but did not say why. The judgment goes against the
compelling authority of the Supreme Court, this circuit and other circuits.
Petitioner’s only request was and still is, that the error is corrected. Not
only the panel of Lynch, Selya and Kayatta did not correct the error, but it
appears that they ignored it. As explained in this brief, it is apparent that
they did not bother to read the appeal brief. Judge Selya evidences in the
judgment citing George, a case he wrote, that he thinks a coram nobis
petition is like a game, with minuscule probability of success. It seems that
3

he is saying that since the general probability of granting the writ is low why
to bother reading the brief and finding differently than usual. The judgment
based on these premises is error and a biased judgment.
2. Summary of prior proceedings
The Petitioner, Antonio Medina (hereinafter "Medina" or "Petitioner"),
was indicted by the United States on September 5, 1991, for an alleged
offense committed in November 1986. The Indictment charged violation of
18 U.S.C. § 1344, in Count One,
A trial by jury was held in January 1993, resulting in a verdict of guilty.
On October 21, 1994, the First Circuit Court of Appeals affirmed the
original judgment.
Petitioner-Appellant filed his petition for a writ of coram nobis
pursuant to 28 U.S.C. §§1651 and 2241.3 The district court dismissed the

3 The petition for writ of coram nobis and the appeal brief included a
request for judicial notice of the file in the underlying criminal case as it
contains the facts related in the petition, facts that are repeated herein and
were never contested. The district court denied the request for judicial
notice and so did implicitly the First Circuit panel. See Appendix 1, 2 and
brief on appeal. Such denial is error and consistent with the apparent sham
review of the petition, where fact or law is irrelevant. Although
unnecessary, because the facts are undisputed, this court can of course take
judicial notice of the underlying case on its own motion or based on the
request made by Petitioner in the courts below, and now, expanded to the
files as they exist now in the coram nobis case and its appeal, the subject of
4

petition on the ground that petitioner had not met the requirements of its test.
The panel of the 1st circuit entered judgment on December 9, 2020,
without opinion. The judgment only succinctly stated that “After plenary
review, we conclude that the denial of coram nobis relief was appropriate for
substantially the same reasons set forth by the district court. See United
States v. George, 676 F.3d 249, 256 (1st Cir. 2012) (standard of review and
tripartite test for coram nobis relief)”.)”. A judgment that says nothing other
than by reference to other judgment is a bad judgment. The panel
purportedly agreed with the district court and affirmed on that basis alone.
But the basis for the denial of the lower court is undisputedly flawed as new
case law by the Supreme Court, published after the petition for coram nobis,
showed that the exact basis for denial: that the error was not of a
fundamental nature, was wrong, reversing a case on point with the exact
error. This is evidence of a summary affirmance without knowledge of the
new law that Petitioner tried to bring to the attention of the judges. The
lower court did not discuss any of the arguments made by the parties or the
district court judge. There is a strong appearance that the panel made its
judgment without reading or considering petitioner’s brief or anything else
as discussed below.

this petition for writ of certiorari.
5

If we try to discern on what the 1st circuit opinion based its judgment
we are compelled to analyze the only sentence with some legal meaning:
“denial of coram nobis relief was appropriate for substantially the same
reasons set forth by the district court. See United States v. George, 676 F.3d
249, 256 (1st Cir. 2012) (standard of review and tripartite test for coram
nobis relief)”. Which leads us to George that says: “we have discretion to
withhold the remedy where the interests ofjustice so dictate.” We discuss
below how this undefined, vague statement is applied by the 1st Circuit in
contravention of Supreme Court case law.
3. Statement of facts and procedural background
In September 1991, 5 years after a civil trial involving the same facts,
a grand jury indicted Petitioner of defrauding Bank of Boston in violation of
18 U.S.C. § 1344 and 18 U.S.C. § 2314 (bank fraud and transportation of
those funds obtained by that fraud). The government alleged that Petitioner
made an implicit misrepresentation by presenting a deposit slip prepared by
a bank officer for an amount that differed from the amount intended by the
issuer of the check, a third-party bank. Neither the government alleged nor
the jury was charged with Petitioner making any misrepresentation that
caused any loss to the bank.

6

On October 4, 1991, several pretrial motions were filed, notably a
motion to dismiss the indictment because it did not state an offense. The
motion was denied by order of March 25, 1992. The court however
annotated in the margin of the order that it was inclined to grant it. Petitioner
filed a motion for judgment of acquittal at the conclusion of the government
case on January 25, 1993. The court denied the motion although it stated on
the record that this was “a close case.” The relevant argument that was made
in these motions was essentially that what Petitioner did, presenting a thirdparty check for deposit was unrelated to any loss and it was not a crime. In
essence, it was argued that the misrepresentation, concealment, or falsehood
(if in fact there was any) were immaterial since it was undisputed that the
true facts were known to the Bank of Boston.
On January 28, 1993, a jury convicted Petitioner of both counts. The
jury was not instructed that the bank fraud statute 18 U.S.C. §§ 1344 (a)(1)
required that the loss resulted from Petitioner’s alleged misrepresentation.
Appeal was filed on August 2, 1994 (case number 93-2167). On July
18, 1995, the First Circuit affirmed Petitioner's conviction on direct appeal.
The opinion of the court of appeals was published in October of 1994 as
United States v. Puerta, 38 F.3d 34. The issue of materiality was argued
again on appeal. The issue was whether Petitioner’s misstatement or
7

omission to the bank could be material since the bank knew the true facts.
The court of appeals found the argument “substantial” but it wrote: “Absent
compelling authority, we reject the argument .” On September 5, 1995, the
mandate issued. On October 12,1995, Petitioner petitioned for a writ for
certiorari to the Supreme Court. In the petition, Petitioner asked the Supreme
Court to provide that “compelling authority.” Upon denial of the petition
(115 S. Ct. 1797, 1995), the judgment became final.
The “compelling authority” needed came from the Supreme Court
later in Neder v. United States, 527 U.S. I, Loughrin, Gaudin, and Shaw.
In essence, the Supreme Court made evident in those cases that
Petitioner was convicted of a non-crime. He is therefore innocent as he has
always claimed.
There is no question about the “availability of collateral relief from a
federal criminal conviction based upon an intervening change in substantive
law” Davis v. United States, 417 U.S. 333, 334 (1974).
4. First circuit's statement of the law and evidence
The coram nobis petition was filed on December 25, 2015 and
dismissed on September 12, 1919. The order of dismissal of the district court
was appealed. The First Circuit affirmed making no explicit findings of law
or evidence.
8

Judges in the first circuit, whose impartiality had been challenged,
affirmed by general rule writing in the judgment that granting relief was not
“in the interests ofjustice.” The panel of the 1st circuit entered that judgment
on December 9, 2020, without opinion.
5. Disposition by the panel in the court of appeals
The First Circuit panel found that the district court’s “denial of coram
nobis relief was appropriate for substantially the same reasons set forth by
the district court. See United States v. George, 676 F.3d 249, 256 (1st Cir.
2012)”, but affirmed without explanation of why the Supreme Court cases
that were published contradicting such conclusion should be disregarded.
Despite some of the district court findings being specifically rejected and
found to be grounds for reversal by the Supreme Court, the panel
disregarded the Supreme Court precedent in Shaw and affirmed without an
opinion. The controlling cases Shaw and Berroa were published after
Petitioner filed his coram nobis petition. It is apparent that the district court,
who mentions neither in its opinion, and the panel judges, who followed the
district court opinion, were unaware of them. Petitioner had objected in his
opening brief to have his appeal reviewed by judges Lynch and Selya. Brief
section III 3, p 16. The bias objection was ignored and not ruled upon.

9

6. Grounds for the first circuit ruling
The First Circuit stated no grounds for affirming the lower court other
than saying that they agreed with the district court. The judgment only
succinctly stated that “After plenary review, we conclude that the denial of
coram nobis relief was appropriate for substantially the same reasons set
forth by the district court. See United States v. George, 676 F.3d 249, 256
(1st Cir. 2012) (standard of review and tripartite test for coram nobis
relief)”. A judgment that says nothing other than by reference to other
judgment is a bad judgment.
7. The relief sought in this Supreme Court proceedings
The First Circuit judgment is presently challenged in this petition for a
writ of Certiorari. This court has ruled in several cases since the original
underlying judgment in this case, that the conduct with which Petitioner was
charged is not a crime sanctioned by the bank fraud statute and therefore
Petitioner is factually and legally innocent.
II. REASONS FOR GRANTING THE WRIT
1. The main reason for granting the writ
The 1st Circuit panel opinion conflicts with decisions of the United
States Supreme Court (United States v. Morgan, 346 U.S. 502 (1954);
Loughrin v. United States, 134 S. Ct. 2384 (2014; Shaw v. United States,
10

137 S. Ct. 462 (2016); Neder v. United States, 527 U.S. 1 (1999); Williams
v. United States, 458 U.S. 279 (1982); United States v. Gaudin, 515 U.S.
506 (1995), all controlling in this case). Consideration by this court is,
therefore, necessary to secure and maintain uniformity of the court’s
decisions, and the integrity of the courts. This case involves more than one
question of exceptional importance because it involves issues on which the
lower court decision conflicts with the authoritative decisions of the
Supreme Court and other United States Courts of Appeals that have
addressed the issue, namely the directives or “test” used to grant or deny
petitions for writ of coram nobis.
The First Circuit writes in George, as the law, that any coram nobis
petition is like a move in a football game where the chances of success are
essentially nil. See United States v. George, 676 F.3d 249, 249 (1st Cir.
2012). Because of that opinion and its continued application to coram nobis
cases, included the one at hand, it is patent that the 1st circuit believe that
coram nobis petitions should be summarily denied. In fact it is apparent that
the judges do not even read them, but simply issue boilerplate judgments
stating that the petition is denied based on George. This case uses “in the
interests of justice” as an escape valve, cover-all “test” invented by the First
Circuit itself which contravenes the precedent of this court. An analysis of
11

s\

this test shows or appears to show that “in the interests of justice” includes
the interests of the 1st circuit judges “saving face” or the interests of the
judges in not having their mistakes exposed by reversal. The particular
reasons, in detail, follow with law and argument supporting the reasons for
granting the writ.
The flawed rationale for systematic denial of writs of coram nobis in the
First circuit court of appeals is that since it is an extraordinary remedy it
should be extraordinarily (rarely) granted. It is an extraordinary remedy
because very rarely the conditions for the writ are met, such as a change in
law that will make a conviction invalid after it was found otherwise. In the
event that such a thing happens the writ is not extraordinary and should be
granted forthwith.
2. Certiorari should be granted to bring the First Circuit in line with
the other circuits
Certiorari should be granted to unify the application of coram nobis relief,
to provide needed guidance to the lower courts and to stop the shameful
practice of the first circuit to disallow coram nobis relief as a matter of
general policy and bring the law into the 21st century. Certiorari should be
granted to resolve a conflict between the First Circuit’s handling of Petitions
for coram nobis and its treatment by the other Circuits. Marks v. United
12

States, 430 U.S. 188, 189 (1977) (certiorari granted to resolve a conflict in
the Circuits). The First Circuit should be brought into constitutional line.
Certiorari should be granted both because of the central and constitutional
importance of the requirement of uniform treatment of petitions for coram
nobis in all Circuits, and the fact that the resolution of this issue will have
constitutional wide impact on the treatment of innocent people who have
been erroneously convicted. Aldinger v. Howard, 427 U.S. 1, 3 (1976)
(certiorari granted "to resolve the conflict on this important question");
Fuller v. Oregon, 417 U.S. 40, 42 (1974) (certiorari granted "because of the
importance of the question presented and the conflict of opinion on the
constitutional issue involved").
Each circuit has its own test, or no test, to decide whether to grant the
writ. For example, to qualify for coram nobis relief in the 9th circuit, the
petitioner must demonstrate each of the following four factors:
"(1) a more usual remedy is not available; (2) valid reasons exist
for not attacking the conviction earlier; (3) adverse consequences
exist from the conviction sufficient to satisfy the case or controversy
requirement of Article III; and (4) the error is of the most
fundamental character." U.S. v. Walgren, 885 F.2d 1417, 1420 (9th
Cir. 1989)
13

In United States v. Loschiavo, similar to this case, a writ of coram Nobis
was affirmed without consideration of any test: “The petitioner, Loschiavo,
was placed in the same hopeless situation of invalid penal custody with no
clear way out and with the Government striving to block any remedy, in
spite of the clear knowledge that he had been convicted on a charge which
was no federal crime at all”. United States v. Loschiavo, 531 F.2d 659, 667
(2d Cir. 1976) (emphasis added)
Many circuits use the standard that a fundamental error requires relief.
Even after a guilty plea, ineffective assistance of counsel “demonstrated
that he has suffered a fundamental error necessitating coram nobis relief’
United States v. Akinsade, 686 F.3d 248, 256 (4th Cir. 2012); CorreaNegron v. United States, 473 F.2d 684, 685 (5th Cir. 1973) ("to correct
errors of the most fundamental character where the circumstances are
compelling to achieve justice.")
Some circuits, including the 2nd, follow Morgan’s standard: “the
standards applied in federal coram nobis are similar. See United States v.
Morgan, supra, 346 U.S. at 511, 74 S.Ct. at 252 ("under circumstances
compelling such action to achieve justice")” United States v. Travers, 514
F.2d 1171, 1173 n.l (2d Cir. 1974).
Most circuits also weigh, in very variable degree, the failure to seek
14

appropriate earlier relief, and the petitioner’s legal consequences from his
conviction.
Whether “the interests ofjustice” are served, a test fabricated by the 1st
circuit, plays no role in any of the other circuits.
3. The test used in the 1st circuit violates the precedent in the main
Supreme Court case about coram nobis
The district court’s opinion is incorrect beyond dispute despite the panel’s
unsupported conclusion.
The only support to the judgment offered by the 1st Circuit panel is
United States v. George, 676 F.3d 249 (1st Cir. 2012). In the first place,
George is an inapposite case where the defendant pleaded guilty. This is a
case where Petitioner, who has always and repeatedly defended his
innocence, was charged with a non-crime. Someone convicted of a non­
crime is not guilty of any crime and a writ for coram nobis should issue.
The next, and more important problem is using George as authority for
the test used to grant, or rather systematically deny, the writ. The case US v
George was cited for the proposition that there is a test in the 1st Circuit
circuit for coram nobis relief as enunciated by judge Selya, author of the
George opinion. A reading of that case and the opinion ofjurists discloses
15

that the case is a disgrace. The test or requirements for granting coram
nobis were enunciated by the Supreme Court in United States v. Morgan,
346 U.S. 502, 512 (1954). The remedy of coram nobis is to issue when
“Otherwise a wrong may stand uncorrected which the available remedy
would right.” United States v. Morgan, at 512. Any other test that imposes
other requirements is the wrong test. The writ of error coram nobis is
appropriate “where a man was convicted for actions that were not illegal,”
United States v. Mandel, 862 F.2d 1067, 1079 n. 6 (4th Cir. 1988) citing
Morgan.
The first circuit is not at liberty to come with its own test if it contradicts
the Supreme Court’s. Petitioner submits that it does, as well as other
circuits’ tests. The George case starts with judge Selya comparing a coram
nobis petition to a game: “A Hail Mary pass in American football is a long
forward pass made in desperation at the end of a game, with only a small
chance of success. The writ of error coram nobis is its criminal-law
equivalent.” There are no criminal law equivalents to a football game. A
coram nobis petition is not a game, but a very serious matter because if it is
not granted “a wrong may stand uncorrected which the available remedy
would right.” United States v. Morgan, at 512. It is the chance to fix a
constitutional error. An error that convicted an innocent, an error of
16

conviction for a nonexistent crime. The game analogy used by judge Selya
in George is not just unfortunate; it is legally incorrect, repugnant, and
insulting. The appearance is that judge Selya looks at the probability of
success of coram nobis in general to rule on a specific case. That is legal
error, as cases cannot be decided by general rule. A decision on a coram
nobis petition that considers anything but its merits is biased. It is an abuse
of discretion the court4 s failure to actually exercise discretion, deciding by
general rule. James v. Jacobson, 6 F.3d 233, 239 (4th Cir. 1993). Judge
Selya's opening statement in George: “...with only a small chance of
success. The writ of error coram nobis is its criminal-law equivalent.”
Selya's statement evinces that he is biased. By his own words he sees a
coram nobis case before him as having a “small chance of success.” Even
before he reads, evaluates or hears the case. A case is evaluated on its
merits, not on the merits or outcomes in other cases. Because judge Selya
was so clearly predisposed to deny the instant (and any other) coram nobis
cases he was not qualified to rule and he will continue his biased adverse
rulings against other innocent people unless this Court pronounces error. It
is apparent that this case was decided by a biased judge by general rule.
Only someone who wrote the George opinion can cite only that opinion in
his review, ignoring five Supreme Court authorities: Morgan, Williams,
17

Nader, Laughrin, Gaudin, and Shaw controlling in this case. The latest case
in the First circuit that is right on point was ignored also. Berroa, 856 F.3d
141 (1st Cir. 2017)4 citingLoughrin v. UnitedStates\3A S.Ct. 2384, 189
L.Ed.2d 411 (2014), further corroborates that judge Selya was not qualified
to review this coram nobis case.
4. The tripartite test used by the first circuit and other circuits was
met
Circuits are split on the test used to grant a coram nobis petition. For
example, the 1 st circuit requires a very high degree of prejudice to grant the
writ, while the 9th circuit, 4th circuit and others find criminal status
presumptively sufficient prejudice per se. U.S. v. Walgren, 885 F.2d 1417,
1420 (9th Cir. 1989). “"Conviction of a felony imposes a status upon a
person which not only makes him vulnerable to future sanctions through
new civil disability statutes, but which also seriously affects his reputation
and economic opportunities." Parker v. Ellis, 362 U.S. 574, 593-94, 80 S.Ct.
909, 919-20, 4 L.Ed.2d 963 (I960)” U.S. v. Mandel, 862 F.2d 1067, 1075
n.12 (4th Cir. 1988). Most criminal convictions do in fact entail adverse
4 Berroa held that bank and mail fraud require that the actions of the
defendant must cause the loss of the victim, which is the fundamental
problem with Petitioner’s conviction. (... fraud statute imposed not only a
but-for causation requirement, but also a "naturalf ] inducement]"
requirement, akin to proximate causation. Berroa. at 149 & n.4.)
18

collateral legal consequences," Sibron v. New York, 392 U.S. 40, 55, 88
S.Ct. 1889, 1898, 20 L.Ed.2d 917 (1968). In the Ninth Circuit, there is no
need for petitioner to show specific adverse consequences that he presently
is suffering or that he is likely to suffer in the future. See e.g., Byrnes v.
United States, 408 F.2d 599, 601 (9th Cir. 1969).
Some circuits do not use the tripartite test, but merely follow the Supreme
Court directive that the error committed is of the most fundamental nature,
which is part of the tripartite test of other circuits.
We list the three parts of the test used by the 1st circuit and show how each
part was more than sufficiently met, assuming that it is a legally sound test.
Part 1. A fundamental error was sufficiently showed when several cases
have been decided after Petitioner’s underlying judgment became final, and
reversed by the Supreme Court for substantially the same reason articulated
by him in this case. One of the Supreme Court cases (Shaw) quotes the
identical jury instruction given in this case as a fundamental error sufficient
to reverse and remand. The identical error was made by the district court in
its opinion and order in this coram nobis case. The court specifically quotes
the same constitutionally infirm instruction with approval and to support its
order, in contravention of Shaw. The court then dismissed the petition for a
writ of coram nobis on September 12, 2019, on the only significant ground
19

that the error committed is not fundamental because the key jury instruction
was correct. Appendix 2: p.12. However, the Supreme Court case Shaw v.
United States, 137 S. Ct. 462, decided after Petitioner filed his petition for
writ of coram nobis found the opposite, that the same instruction was a
fundamental error and grounds for reversal.
Part 2. The Delay in seeking relief based on Shaw v. United States is
nonexistent as this opinion was published after Petitioner filed his brief.
Petitioner relied on Shaw to defeat the district court argument in its denial of
the coram nobis petition, because the exact argument of the district court had
been assigned error by the Supreme Court in Shaw, decided after he filed his
petition, so there cannot be any delay as he filed his petition in anticipation.
As for the delay after the other main Supreme Court precedent, Loughrin,
Petitioner shows in his brief that the delay was barely one year. There is no
statute of limitations for coram nobis. Finding that a delay of about one year
to file a coram nobis petition is excessive is ridiculous.
Part 3. Prejudice is presumed by reason of the conviction in some circuits
and “the government carries the burden of disproving this presumption.”
US. v. Walgren, 885 F.2d 1417, 1421 (9th Cir. 1989). Even using the more
demanding and vague “test” of the 1st circuit it was exceedingly shown by
Petitioner that he was prejudiced well in excess of what a conviction itself
20

naturally and normally conveys.
The 1st circuit ignored all precedential cases of the Supreme Court claimed
to be controlling without comment. There is no perversion more repugnant
than charging and convicting a man of a non-crime. It abounds in history,
and the courts of Massachusetts are infamous for their share of this disgrace,
such as charging, convicting, and executing “witches” in 1692.5 A disgrace
that seems to continue to the present.
5. The 1st circuit case George is bad law permitting biased rulings in
coram nobis resulting in denial of a remedy to wrongfully convicted
innocent people
“The Supreme Court has not yet addressed the precise standards that lower
courts should use in deciding whether to issue writs of error coram nobis”
Murray v. United States, 704 F.3d 23, 29 (1st Cir. 2013)
This is the standard that the 1st circuit applies in coram nobis cases:
Even if we assume for argument's sake that the petitioner has
satisfied the tripartite test, we know of no binding authority that

5

The Commonwealth of Massachusetts. Chapter 145 of the resolves of 1957.
“Resolve relative to the indictment, trial, conviction and execution of Ann
Pudeator and certain other persons for "witchcraft" in the year sixteen
hundred and ninety-two.” https://www.mass.gov/doc/resolves-of-1957chapter-145/download
21

would compel us ... to grant coram nobis. When all is said and
done, issuing or denying a writ of error coram nobis must hinge on
what is most compatible with the interests ofjustice
The first circuit then refers to Morgan, 346 U.S. at 511, 74 S.Ct. 247 but
Morgan does not support such conclusion. Petitioner is requesting with this
petition that this Supreme Court provides the binding authority that the 1st
circuit claims is missing, not just for his benefit but the benefit of other
innocent people wrongly convicted now or in the future.
The error of the 1st circuit is that its test to grant a coram nobis writ is
never passed except: when it “is most compatible with the interests of
justice” or “where the interests ofjustice so dictate.” In contrast this
Supreme Court will grant the writ: “under circumstances compelling such
action to achieve justice.” Other circuits apply strictly that test: See e.g. U.S.
v. Mandel, 862 F.2d 1067, 1074 (4th Cir. 1988) “it is clear to us that if this
case were before us on direct appeal we would be required to overturn all the
convictions. The issue here, however, is whether Coram Nobis relief is
appropriate in this case. We think that it is required in order to achieve
justice.” “the standards applied in federal coram nobis are similar” (citing
Morgan, emphasis added). See United States v. Morgan, supra, 346 U.S. at
511, 74 S.Ct. at 252 ("under circumstances compelling such action to
22

>*

>

'V

K

{

.4

*

7

i

J

y

i

/

i

*

♦
’

;

0:-

i»

1

?

v

i

;

f

1

t

\

t

/*

*

i

I.

.

«

i

1

r

f

*

r

&

t

■*.i

/
r

;■

•*

i

»

•t

*r

(

♦

f

«
i

v

i'

r

1 >i

j

♦
i

A

r

•r

achieve justice”)”; United States v. Travers, 514F.2d 1171, 1173 n.l (2d
Cir. 1974).
An analysis of the George case evinces that interests ofjustice is distinct
from to achieve justice. It is quite evident in George that The First circuit is
talking about the interests of the judicial system, including the judges in that
circuit, not the interests of a wrongfully convicted petitioner or anybody
else, including the public at large.
This is further enhanced by the quotation to United States v. George in
this case as the only case cited in the judgment, for the authority on the test
for coram nobis relief, a test made up with no connection to the relevant
Supreme Court rulings.
The George case, authored by judge Selya, contravenes the Supreme
Court test for granting coram nobis relief. Furthermore, judge Selya states
that coram nobis is equivalent to a football game pass (“Hail Mary”) and
states: “we have discretion to withhold the remedy where the interests of
justice so dictate” contradicting the Supreme Court and giving a strong
appearance of judgment by general rule. An appearance that is evidenced in
this case also. In short, there is a failure to follow precedent and an
appearance of lack of impartiality and due process of law. Petitioner
contends that the 1st circuit does not have discretion to withhold the remedy
23

t'

J

\

t

*
:

i

,*

J

\

4

i

:*

i

4*

V

j,

r

;
1.

if

1

/

c

i

;

1

j

*

p

t

i

*

;

►

1

\

T

?:

i

#•

r
i

»

;

!
t

•L

:

l

based on a naked finding as vague and meaningless as “the interests of
justice so dictate.”
The 1st circuit will not grant a writ of coram nobis, even if an innocent
person was convicted unless “the ends ofjustice will be served” or “the
interests of justice so dictate.”6 But that is a blatant distortion of the Supreme
Court’s instruction that at a writ of error coram nobis should issue “only
under circumstances compelling such action to achieve justice.” Morgan,
346 U.S. at 511, 74 S.Ct. 247. To “achieve justice is” clearly defined and
understood, “the interests ofjustice” is not. The First circuit understands it
as unrelated to the interest of achieving justice but to the interest and good
appearance of the judicial system. The Supreme Court in Morgan and others
clearly focuses on achieving justice for the wrongfully convicted if a
substantial legal error is discovered. The 1st Circuit focuses on itself and its
reputation. Without explaining the meaning of “the ends ofjustice will be
6 Although those phrases sound good and somewhat similar to the Supreme
Court phrase to achieve justice, they are ambiguous and meaningless because
they are not defined by the 1st circuit or any other, especially in the context
of coram nobis. Furthermore, the discussion in George seems to indicate that
the 1st circuit uses them as meaning finality or “save face”, not what the
Supreme Court intended with the words to achieve justice, and are no excuse
either to let stand the conviction of an innocent person. Black’s law
, dictionary defines justice as “Protecting rights and punishing wrongs using
fairness” and denial ofjustice as “A deficiency in the administration of
justice.” From these definitions it is easy to find the meaning of “to achieve
justice” as it is the opposite of denial ofjustice. The dictionary does not
define “the interests ofjustice.”
24

served” or “the interests ofjustice so dictate,” it appears nevertheless in
George, and this case, that a further understanding is finality. They explain,
with disguised words, that reversing a prior opinion is against “the ends of
justice” or “the interests ofjustice” because it does not promote how wise
and infallible the judges in the 1st circuit are. But the interest of finality, no
matter how important it is, does not override the interest of vindicating an
innocent person. Furthermore, conviction of the innocent may sooner or later
come to haunt not only the convicting court, but the whole judicial system so
the interest of finality is questionable. See footnote 5 and related text.
The 1st Circuit does not say, even by way of example what cases (if any)
will satisfy the circuit’s ambiguous test. Not surprisingly, consistently with
the impossible test it uses thelst Circuit has never ruled in favor of granting a
petition for the writ, making the review of such petition futility and a sham,
of which this case is an example.
6. A circuit judge should not decide a case while a challenge to his
impartiality has been raised and the issue remains unresolved
The 1st Circuit panel issued judgment over objection of bias and without
ruling on the objection.
Petitioner objected in his opening brief to have his appeal reviewed by
25

judges Lynch and Selya because they were biased. Brief section III 3, p 16.
The objection and grounds were detailed in Petitioners brief. He stated: “It is
human nature and bias to be averse to change one‘s opinion and admit
mistake”. The two judges ignored the objection, and without any ruling on
the objection proceed to review, and not surprisingly, affirm.
There is an appearance of bias and there is no ruling regarding the
objection to bias. Each is sufficient for this case to be reheard by judges
different from the ones charged with bias.
It is unknown why the judges proceeded to review a case where they had
been objected on bias without considering and ruling on the objection. In
lower courts these kinds of objections are ruled by other judges, as it is quite
evident that bias is not something that the biased person can competently, and
without bias, determine. Some courts, despite the appearance of sham, have a
rule that permits the judges charged with bias to rule on it. Neither happened
in this case.
Maybe the judges missed the objection, which was made in the brief
instead of in a separately filed document. Petitioner is unaware of any rule
about the procedure to disqualify a judge in the 1st Circuit court but he
contends that an objection perfectly made and supported with facts in his
brief should suffice. After all, the judges had to read the brief. Didn’t they?
26

Of course, it is possible that they missed it simply because they did not read
it. More than possible, it is probable. The judgment itself looks like a biased
judgment on its face. The following facts evidence lack of due process and
bias:
a. The judgment is not supported by any opinion at all.
b. The judgment makes no reference to anything in the record.
c. The only citation in the judgment supports and confirms the suspicion
that the panel decided this case by general rule as explained here.
d. The judgment states that the review was plenary, but does not list a
single issue that was reviewed de novo, or otherwise. The judgment lists only
the judgment of the district court as the item that they reviewed. But the
opinion of the district court is irrelevant in this plenary review.7 So the
appearance is that the panel judges of this court reviewed nothing.

III. CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted and mailed on September 21, 2021

TV

Antonio Medina, Petitioner

7 Furthermore, the opinion of the district court is facially in error
in light of Shaw and as discussed here.
27

